March 17, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Rohit Kumar v. William Barr (Attorney General) on Behalf of
United States Federal Government

Dear Sir or Madam:
I hereby certify that at the request of the pro se Petitioner, on March 17, 2020,
I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

Mr Robert L Homan
# 18580
1620 Dodge Street, Suite 1400
Omaha, Nebraska 68102-1506
Robert.homan@usdoj.gov

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely, ,

V
Jack Suber, Esq.
Principal

RECEIVED
MAR 1 9 2020
USA KAY NICHOLSON
,
Notary Public
I State of Maryland
Montgomery County
My commission eg). October 12,2022

Sworn and subscribed before me this 17th day of March 2020.

<~<u/ J<^

OFFICE OF THE CLERK
SUPREME COURT, U S.

d

